            REVIEW OF
 FEDERAL TECHNOLOGY SERVICE’S
CLIENT SUPPORT CENTER CONTROLS
    AND TESTING OF CONTROLS
       MID-ATLANTIC REGION
REPORT NUMBER A050009/T/3/Z05016

          MAY 18, 2005
DATE:       May 18, 2005

REPLY TO
ATTN OF: Mid-Atlantic Region Field Audit Office (JA-3)

SUBJECT: Review of Federal Technology Service’s Client Support Center
         Controls and Testing of Controls – Mid-Atlantic Region
         Report Number A050009/T/3/Z05016

TO:         Jon R. Kvistad
            Acting Regional Administrator (3A)

            Barbara L. Shelton
            Acting Commissioner, Federal Technology Service (T)


This report presents the results of the Office of Inspector General’s review of the
Federal Technology Service (FTS) Client Support Center (CSC) in the Mid-Atlantic
Region (Region 3). The Ronald W. Reagan National Defense Authorization Act for
Fiscal Year 2005 (Public Law 108-375) directed the Inspectors General of the General
Services Administration (GSA OIG) and the Department of Defense (DOD OIG) to
jointly perform a review of each FTS CSC and determine whether each CSC is
compliant, not compliant, or not compliant but making significant progress, with Defense
procurement requirements.

Objectives, Scope and Methodology

To review the adequacy of policies, procedures, and internal controls in each CSC, we
analyzed a random sample of procurement actions executed between August 1, 2004
through October 31, 2004. We also analyzed a judgmental sample of existing orders
and the steps taken to remediate any past problems in these existing orders. For the
Mid-Atlantic CSC, our sample included nine new awards and two existing orders, valued
at $4.7 million and $40.5 million, respectively. The audit was conducted between
October 2004 and March 2005, in accordance with generally accepted Government
auditing standards.
Results of Audit

We determined the Region 3 CSC to be not compliant but making significant progress.
The Region has implemented national controls identified in the Administrator’s “Get it
Right” Plan, and has improved its overall contracting practices, compared with our past
audit findings. For example, we found all orders to be in compliance with the
requirements of Section 803 of the National Defense Authorization Act for Fiscal Year
2002. However, we did find that the nine new orders had a common procurement
compliance deficiency that does not represent a potential financial impact. We also
identified one order that involved a non-Information Technology (IT) procurement
through the IT fund. Lastly, in our review of existing orders, we found the remediation
progress inadequate to address deficiencies found in our prior review. As directed in
the Ronald W. Reagan National Defense Authorization Act for Fiscal Year 2005,
because the CSC is not fully compliant, we are required to perform a subsequent audit
of CSC contracting practices by March 2006 to determine whether the CSC has
become compliant.

Procurement Compliance Deficiency with No Potential Financial Impact. Our review of
the nine new orders determined that none contained an Interagency Agreement. This
situation resulted from guidance contained in a memo issued by the FTS Central Office
and the GSA Chief Financial Officer that may not have provided sufficient clarification
regarding what was required. This conflict was recognized and taken into consideration
when evaluating these orders. The Mid-Atlantic CSC’s position is that it complied with
the guidance via the use of the customer agency’s funding document combined with
FTS’ acceptance of that funding. However, while this documentation represents a
validly recorded obligation, it does not meet the requirements of a reimbursable
agreement as outlined in the FTS Central Office guidance. Reimbursable agreements
must include a clear, concise statement identifying the requesting agency’s specific
need and clearly establishing the financial arrangements between the requesting
agency and FTS. The reimbursable agreement provides written documentation to
ensure there is a formal offer and acceptance between the federal agency and FTS.

Other Procurement Compliance Deficiency. We identified one order, valued at
approximately $295,000, which involved the use of the IT fund for the procurement of
tow banners (used in target practice for fighter pilots). We determined that these
banners were not IT-related. Therefore, the IT fund should not have been used for the
funding of this procurement.

Inadequate Remediation Progress for Existing Orders. Our review of two existing
orders, which were cited for deficiencies in our initial report, found the remediation
actions to be inadequate.

   •   A $17 million schedule order for operations support, in our initial report, was cited
       for the lack of (1) an Acquisition Plan and (2) FTS oversight of contractor billings.
       Our review determined no additional analysis was conducted to ensure the
       appropriateness of the procurement, in light of the absence of an Acquisition


                                           2
       Plan. Additionally, while the Region 3 CSC is currently involved in developing a
       process for ensuring the accuracy of contractor billings, no process has yet been
       implemented. CSC officials stated that this task order is due to terminate as of
       April 30, 2005.

   •   A $24 million order to provide life-cycle support for an information system, in our
       initial report, was cited for the lack of (1) a Determinations and Findings
       document and (2) FTS oversight of contractor billings. While the Region 3 CSC
       is currently involved in developing a process for ensuring the accuracy of
       contractor billings, we determined that no formal process has yet been
       implemented. CSC officials stated that this task order is due to terminate as of
       April 30, 2005.


Conclusion

While not fully compliant, we found that the Mid-Atlantic Region CSC has made
significant progress in implementing controls to ensure compliance with procurement
regulations.     The CSC has implemented national controls identified in the
Administrator’s “Get It Right” Plan and improved its overall contracting practices.
However, we did find procurement compliance deficiencies in nine new orders. We also
identified one order that utilized the IT Fund for the procurement of a non-IT commodity.
Lastly, we determined the remediation actions on two existing orders were inadequate.
As stated in our January 2004 report on the FTS CSCs, we believe that steps to remedy
the CSC procurement problems require a comprehensive, broad-based strategy that
focuses on the structure, operations and mission of FTS as well as the control
environment. Based on the comprehensive recommendations contained in that report,
no further overall recommendations are deemed necessary at this time.

Management Comments

In his response, the Acting Regional Administrator acknowledged the issues raised in
the draft report and submitted some remedial actions taken by the FTS Mid-Atlantic
Region designed to address those issues. Management’s response is included in its
entirety as Attachment 1 to this report.

Internal Controls

We assessed the internal controls relevant to the CSC’s procurements to assure that
the procurements were made in accordance with the Federal Acquisition Regulations
and the terms and conditions of the contracts utilized. While we have seen substantial
improvements in internal controls, FTS will need to continue its commitment to the “Get
It Right” initiatives and to implementation of effective controls over procurement
processes to ensure full compliance by March 2006.




                                            3
If you have any questions regarding the report, please contact Stephen J. Ehinger, or
me, at (215) 446-4840.




James M. Corcoran
Audit Manager
Mid-Atlantic Region

Attachments




                                         4
                      ATTACHMENT 1
MANAGEMENT COMMENTS
                      ATTACHMENT 1
                            P 2 OF 2
MANAGEMENT COMMENTS
                                                          ATTACHMENT 2


               REVIEW OF FEDERAL TECHNOLOGY SERVICE’S
      CLIENT SUPPORT CENTER CONTROLS AND TESTING OF CONTROLS
                         MID-ATLANTIC REGION
                   REPORT NUMBER A050009/T/3/Z05016


                               REPORT DISTRIBUTION

                                                              Copies

Acting Regional Administrator, Mid-Atlantic Region (3A)          3

Acting Commissioner, Federal Technology Service (T)              3

Assistant Inspector General for Auditing (JA & JAO)              2

Regional Inspector General for Investigations (JI-W)             1
